                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF WSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A06070030                                                                   Page 1 of 1



     The complainant1 aired an oral allegation that the authors of a proposal2 being considered by the
     panel had plagiarized from her earlier funded proposal3 in the same area. The program officer4
     attests that the allegation did not play a part in the proposal evaluation. When contacted by
     phone, the complainant retreated from the assertion in the allegation (forwarded to NSF by a NSF
     Program Officer) that exact wording was duplicated in the current proposal. Instead, she claimed
     that the formatting, and style of writing was copied, including the order of the sections presented
     in the proposal, and the names of the sections. From memory, she stated that she recalled a
     similarity in the sections on overview and action plan. She claimed that the end result was that
     the current proposal looked very similar to her proposal, and implied that since her proposal was
     funded, others might wish to emulate it. Neither the PI nor any of the coPIs on the current
     proposal served as reviewers on the complainant's previous proposal. The complainant stated
     that she did not send a copy of the proposal to them.

     The project descriptions of the two proposals were carefully examined. A manual examination
     revealed no instances of overlap in wording, organization, section titles, analysis plan, or any
     other part of the proposal. A software comparison word for word of the project descriptions
-    revealed no instances of duplicative wording. The allegation of plagiarism of any sort (wording,
     Sorn~atting,overview, or action plan) is without substance.

     Accordingly, this case is closed.




     I   Redacted.
         Redacted.
     3
         Redacted.
         Redacted
